TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Many Taxpayers Are Still Not Complying
                      With Noncash Charitable Contribution
                            Reporting Requirements



                                       December 20, 2012

                              Reference Number: 2013-40-009




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


MANY TAXPAYERS ARE STILL NOT                         Taxpayers who donate motor vehicles must
COMPLYING WITH NONCASH                               attach a Form 1098-C, Contributions of Motor
CHARITABLE CONTRIBUTION                              Vehicles, Boats, and Airplanes, to their tax
REPORTING REQUIREMENTS                               returns. However, the IRS is still not effectively
                                                     identifying taxpayers who are not complying with
                                                     reporting requirements for donations of motor
Highlights                                           vehicles.
                                                     A match of the Forms 1098-C submitted with tax
Final Report issued on                               returns processed as of December 31, 2011, to
December 20, 2012                                    those submitted by charities identified
                                                     35,846 tax returns with motor vehicle claims
Highlights of Reference Number: 2013-40-009          totaling approximately $77 million where no
to the Internal Revenue Service Commissioner         Form 1098-C was filed by the charity. In
for the Wage and Investment Division.                addition, 1,708 taxpayers reported fair market
                                                     values of the vehicles that exceeded sale
IMPACT ON TAXPAYERS                                  proceeds by a combined total of $2.2 million.
Taxpayers can generally deduct on their Federal      WHAT TIGTA RECOMMENDED
tax return noncash charitable contributions
made to qualifying organizations during the tax      TIGTA recommended that the IRS expand
year. However, taxpayers who do not comply           procedures to identify tax returns claiming
with the noncash contributions reporting             noncash charitable contributions that do not
requirements could be incorrectly reducing their     have a Form 8283, Noncash Charitable
tax liabilities and receiving tax refunds to which   Contributions, or qualified appraisal attached
they are not entitled. TIGTA estimates more          when required and develop processes to
than 273,000 taxpayers claimed approximately         systemically verify the accuracy of noncash
$3.8 billion in potentially erroneous noncash        charitable contributions. In addition, the IRS
charitable contributions in Tax Year 2010, which     should revise the Form 8283 and related
resulted in an estimated $1.1 billion reduction in   instructions and develop procedures to match
tax.                                                 Forms 1098-C submitted with individual tax
                                                     returns to those filed by charitable organizations.
WHY TIGTA DID THE AUDIT
                                                     IRS management agreed with three of the six
This audit was initiated as a follow-up to prior     recommendations and partially agreed with one.
TIGTA audit recommendations. The objective of        IRS management did not agree with TIGTA’s
this review was to assess the IRS’s actions to       conclusion that information contained in the
ensure taxpayers are complying with reporting        Individual Return Transaction File is incorrect.
requirements for claiming noncash charitable         In addition, IRS management did not agree to
contributions.                                       develop procedures to match Forms 1098-C
                                                     submitted with individual tax returns to those
WHAT TIGTA FOUND
                                                     filed by charitable organizations.
IRS controls are not sufficient to ensure
                                                     ********************2(f)*****************************
taxpayers are complying with noncash charitable
                                                     ********************2(f)*****************************
contribution reporting requirements. Statistical
                                                     ********************2(f)******************************
samples of Tax Year 2010 tax returns that
                                                     ***2(f)***. However, in response to our
claimed more than $5,000 in noncash charitable
                                                     recommendation to capture additional
contributions showed that approximately
                                                     information from the Form 8283, IRS
60 percent of the taxpayers did not comply with
                                                     management agreed to capture the information
the noncash charitable contribution reporting
                                                     necessary to identify taxpayers who donate
requirements. These taxpayers claimed
                                                     motor vehicles, which will enable the IRS to
noncash contributions totaling approximately
                                                     match Forms 1098-C.
$201.6 million.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         December 20, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Many Taxpayers Are Still Not Complying With
                             Noncash Charitable Contribution Reporting Requirements
                             (Audit # 201140035)

 This report presents the results of our review of the Internal Revenue Service’s actions to ensure
 taxpayers are complying with the reporting requirements for claiming noncash charitable
 contributions. This audit was a follow-up to prior Treasury Inspector General for Tax
 Administration audit recommendations and was included in our Fiscal Year 2012 Annual Audit
 Plan. This audit addresses the major management challenge of Erroneous and Improper
 Payments and Credits.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Augusta R. Cook,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                                Many Taxpayers Are Still Not Complying With
                           Noncash Charitable Contribution Reporting Requirements




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Internal Revenue Service Continues to Allow
          Unsupported Deductions for Noncash Charitable
          Contributions................................................................................................. Page 5
                    Recommendation 1:........................................................ Page 11

                    Recommendations 2 through 4:......................................... Page 12

          Better Controls Are Needed to Ensure Donations of
          Motor Vehicles Are Appropriately Reported ............................................... Page 13
                    Recommendation 5:........................................................ Page 14

                    Recommendation 6: .................................................................. Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Outcome Measures............................................................... Page 22
          Appendix V – Treasury Inspector General for Tax Administration
          Reports on Compliance With Noncash Charitable Contribution
          Reporting Requirements ............................................................................... Page 27
          Appendix VI – Analysis of Statistically Valid Samples From
          Tax Year 2010 Returns With Noncash Charitable Contributions
          Claimed As Deductions ................................................................................ Page 29
          Appendix VII – Form 8283, Noncash Charitable Contributions ................. Page 31
          Appendix VIII – Management’s Response to the Draft Report ................... Page 33
                           Many Taxpayers Are Still Not Complying With
                      Noncash Charitable Contribution Reporting Requirements




                                   Abbreviations

e-file(d), e-filing         Electronically file(d); electronic filing
IRS                         Internal Revenue Service
IRTF                        Individual Return Transaction File
TIGTA                       Treasury Inspector General for Tax Administration
                            Many Taxpayers Are Still Not Complying With
                       Noncash Charitable Contribution Reporting Requirements




                                            Background

The Internal Revenue Code allows individuals to deduct on their tax return noncash charitable
contributions made to qualifying organizations during the tax year.1 Noncash contributions of
property, clothing, vehicles, art, and other noncash items have long been an important source of
revenue for many charitable organizations and a popular deduction for taxpayers. In Processing
Years2 2011 and 2012,3 approximately 21 million and
20 million individuals claimed noncash charitable
                                                                      More than 20 million
contributions, respectively.4                                         individuals claimed
Taxpayers who donate property to a qualified charitable               noncash contributions
                                                                    in Processing Year 2012.
organization can generally deduct the fair market value of
the property at the time of the contribution.5 The fair
market value is the price that the property would sell for on the open market. Contributions
must be deducted in the year that they are made. However, the amount that can be deducted is
generally limited to 50 percent of Adjusted Gross Income.6 Contributions in excess of the
Adjusted Gross Income limit can generally be carried over and deducted in each of the next
five tax years until they are used up, but may not exceed that time.7

Reporting requirements for individuals claiming noncash charitable contributions
The legitimacy of the values placed on some of these noncash contributions has been questioned
by the Internal Revenue Service (IRS) and Congress. Concerns primarily focused on taxpayers
deducting amounts for noncash contributions that did not reflect the fair market value of the
donation as required by the tax laws. As a result, taxpayers were benefiting from the deductions
more than charities were benefiting from the donations.
The American Jobs Creation Act of 2004,8 enacted on October 22, 2004, expanded the reporting
requirements for noncash charitable contributions. Taxpayers claiming noncash charitable
contributions of more than $500 must attach Form 8283, Noncash Charitable Contributions, to



1
  I.R.C. §170(a).
2
  The calendar year in which the tax return or document is processed by the Internal Revenue Service.
3
  As of August 9, 2011, and June 28, 2012, respectively.
4
  Errors in IRS data prevented us from being able to compute the amount of noncash charitable contributions
claimed. See page 10 of this report.
5
  Some conditions can affect the taxpayer’s ability to deduct fair market value.
6
  Adjusted Gross Income is the total income minus certain allowable adjustments.
7
  The period over which the deduction can be carried over is dependent on the property being donated.
8
  Pub. L. No. 108-357, 118 Stat. 1418.
                                                                                                              Page 1
                             Many Taxpayers Are Still Not Complying With
                        Noncash Charitable Contribution Reporting Requirements



their tax returns.9 The Form 8283 requires the taxpayer to provide a description of the donated
property and other information such as the charitable organization’s name and address, the date
of the contribution, and the condition of the property. Part V of the Form 8283 must also be
completed and signed by the charitable organization that received the donation (the donee).
Taxpayers who claim noncash charitable contributions of more than $5,000 must provide the
following information in addition to the Form 8283:
          Noncash contributions of $5,001 to $500,000 – A signature from the charitable
           organization acknowledging receipt of the donated property and the signature of a
           qualified appraiser.
          Noncash contributions of more than $500,000 – A signature from the charitable
           organization acknowledging receipt of the donated property, the signature of a qualified
           appraiser, and a copy of the appraisal.
Taxpayers must also attach an appraisal for art
donations of $20,000 or more, any single item
of clothing or any household item that is not in
good used condition or better and more than
$500, and easements on buildings in historic
districts.
Taxpayers donating motor vehicles valued at
more than $500 must also attach Copy B of
Form 1098-C, Contributions of Motor Vehicles,
Boats, and Airplanes, and Form 8283 to their
tax returns. The Form 8283 description of the
donated vehicle should include the vehicle’s
make, model, condition, and mileage. For a
donated vehicle with a claimed value of more
than $500, the taxpayer can generally deduct
the smaller of the fair market value on the date
of the contribution or the gross proceeds from
the sale of the vehicle by the qualified
organization.
For taxpayers who electronically file (e-file) their tax returns, in addition to the Forms 8283 and
1098-C attached to their e-filed tax returns, they must also send paper Forms 8283 and 1098-C to
the IRS with the original donee and/or appraiser signatures. The forms are to be attached to



9
    See Appendix VII for the Form 8283.
                                                                                               Page 2
                           Many Taxpayers Are Still Not Complying With
                      Noncash Charitable Contribution Reporting Requirements



Form 8453, U.S. Individual Income Tax Transmittal for an IRS e-file Return, and mailed to the
IRS.

Congress has previously raised concerns with noncash charitable contributions
The Joint Committee on Taxation, at the request of the Senate Finance Committee, issued a
report on January 27, 2005,10 to address members’ concerns with noncash charitable
contributions. The Committee made a number of proposals to reduce the number of improper
claims for the noncash charitable contributions deduction. These proposals included:
        Eliminating the charitable contribution deduction for facade and conservation easements
         relating to personal residence properties, substantially reducing the deduction for all other
         qualified conservation contributions, and imposing new standards on appraisals and
         appraisers regarding the valuation of such contributions. 
        Limiting the tax deduction for charitable contributions of clothing and household items to
         $500 per taxable year with no carryover of contributions of more than $500. 
        Limiting the deduction for charitable contributions of property to the donor’s basis in the
         property or, if less, the fair market value of the property.
        Requiring certain professional qualifications for appraisers and establishing uniform
         appraisal guidelines.
        Eliminating, in whole or in part, the charitable contribution deduction for property.
In March 2007, the Treasury Inspector General for Tax Administration (TIGTA) reported that
the IRS needed to take additional actions to identify taxpayers who do not comply with the
noncash charitable contribution reporting requirements.11 The TIGTA has since conducted two
additional reviews of the IRS’s efforts to ensure taxpayers are complying with the reporting
requirements for noncash charitable contributions.12 In each of the reviews conducted, we
reported that the IRS had not implemented adequate controls to identify taxpayers’
noncompliance with noncash charitable contribution reporting requirements.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period December 2011 through July 2012. The purpose of this
review was to determine if the actions taken in response to our prior audit recommendations
were effective. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

10
   Joint Committee on Taxation, Options to Improve Tax Compliance and Reform Tax Expenditures (Jan. 27, 2005).
11
   TIGTA, Ref. No. 2007-30-049, The Internal Revenue Service Needs to Improve Procedures to Identify
Noncompliance With the Reporting Requirements for Noncash Charitable Contributions (Mar. 2007).
12
   See Appendix V for a list of the reports, with their findings, recommendations, and IRS corrective actions.
                                                                                                       Page 3
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                            Many Taxpayers Are Still Not Complying With
                       Noncash Charitable Contribution Reporting Requirements




                                      Results of Review

The Internal Revenue Service Continues to Allow Unsupported
Deductions for Noncash Charitable Contributions
An analysis of statistical samples of large-dollar noncash charitable contributions claimed on Tax
Year13 2010 returns showed that the IRS did not effectively identify claims in which the required
information was not provided or was incomplete. Approximately 60 percent (303 of 507) of
individuals in our statistical samples did not comply with the reporting requirements. These
individuals claimed approximately $201.6 million in noncash charitable contributions.14 Figure 1
provides the results of our analysis.15
                  Figure 1: Summary of Taxpayer Errors in Reporting
               Noncash Charitable Contributions on Tax Year 2010 Returns

              Taxpayer                    Contributions of             Contributions of
               Errors                    $5,000 to $500,000           More Than $500,000             Totals
 Tax Returns Reviewed                             287                          220                     507
 Exceptions                                       213                           90                     303
 Error Rate                                       74%                          41%                    60%
 Unsubstantiated Contributions                $2.7 million                $198.9 million         $201.6 million

                                              Exception Issues16
 Proper Forms Not Attached                         16                           39                     55
 Incorrectly Completed
                                                  116                           59                     175
 Form 8283
 Incorrectly Reported Items on
                                                  129                           10                     139
 Form 8283
 Unclear Description of
                                                   17                           29                     46
 Donated Property
Source: TIGTA analysis of noncash charitable contributions more than $5,000 claimed on Tax Year 2010 returns.


13
   A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
14
   See Appendix I for sampling details.
15
   See Appendix VI for detailed results of the analysis of the statistically valid samples.
16
   The number of tax returns will not equal the number of exceptions identified because some tax returns contain
more than one error.
                                                                                                            Page 5
                         Many Taxpayers Are Still Not Complying With
                    Noncash Charitable Contribution Reporting Requirements



Errors included:
      Forms 8283 or appraisals not attached when required.
      Incomplete Donee Acknowledgement section and/or Declaration of Appraisal section on
       Form 8283.
      Incorrectly reported items on Section A of Form 8283 by not combining similar items or
       reporting non-publicly traded securities.
      Unclear or incomplete descriptions of the donated property, including donations of
       securities.
      Missing or ineligible contribution dates and dates of receipt acknowledged by the
       charitable organization.
We estimate that more than 273,000 taxpayers claimed approximately $3.8 billion in potentially
unsubstantiated noncash contributions in Tax Year 2010, which resulted in an estimated
$1.1 billion reduction in tax.
Since the Joint Committee on Taxation report in January 2005, the IRS has taken a number of
steps to improve taxpayers’ compliance by:
      Including additional noncash charitable contribution reporting requirements.
      Revising tax forms and publications.
      Developing an outreach program for taxpayers and tax practitioners.
      Implementing checks to ensure that taxpayers include the Form 8283 and other required
       support with their tax returns.
However, the IRS’s actions have not been effective at identifying the majority of unsubstantiated
noncash charitable contributions by taxpayers during returns processing. Without effective
processes to identify individuals who do not comply with noncash charitable contribution
reporting requirements, the IRS may be allowing these individuals to inappropriately reduce their
tax liabilities and subsequently receive tax refunds to which they are not entitled.
The IRS needs to ensure that current processes verify that required documentation for all
noncash charitable contributions is present. In addition, the IRS is not effectively using the
information on the Form 8283 to identify questionable noncash contributions at the time tax
returns are filed. Clarifying taxpayer instructions and revising the Form 8283 can also help
improve taxpayer compliance with noncash charitable contribution requirements.




                                                                                            Page 6
                          Many Taxpayers Are Still Not Complying With
                     Noncash Charitable Contribution Reporting Requirements



Current processes do not ensure taxpayers provide the Form 8283 or a qualified
appraisal when required
In March 2007, we reported that additional procedures are needed to identify noncompliance
                                     with charitable contribution requirements during returns
  In general, individuals who claim
  noncash charitable contributions
                                     processing. The IRS responded that it would correspond
  must provide the following with    with taxpayers claiming noncash contributions over a
  their tax returns:                 specific dollar threshold but with no Forms 8283 attached
   Noncash contributions of $501 to
                                     to their tax returns. It also stated it would use a specific
    $5,000 – Form 8283 containing a  indicator to identify for the Examination function tax
    description of the donated       returns claiming noncash charitable contributions over a
    property.                        specific threshold dollar amount but with no Forms 8283.
  Noncash contributions of motor        However, 18 percent (55 of 303) of the errors identified in
   vehicles more than $500 –             our statistical samples of noncash charitable contributions
   Form 8283 and Form 1098-C.
                                         of more than $5,000 resulted from missing documents –
  Noncash contributions of $5,001       missing Forms 8283, Forms 1098-C, or appraisals.
   to $500,000 – Form 8283
   containing a description of the
                                         Approximately 65 percent (36 of 55) were filed with paper
   donated property, a signature         returns while 35 percent (19 of 55) were e-filed.
   from the charitable organization
   acknowledging receipt of the
                                         Processes for verifying tax returns are inconsistent
   donated property, and the           IRS employees review paper-filed tax returns claiming
   signature of a qualified appraiser.
   Noncash contributions of more
                                       noncash charitable contributions to determine if required
   than $500,000 also require a        information has been included with the tax return. Those
   copy of the appraisal.              above a certain threshold are identified for further actions
                                       (either for correspondence with the taxpayer or input of an
examination indicator). The dollar thresholds applied and the actions taken differ depending on
the IRS function that identified the missing documents.
******************************************2(f)*********************************
******************************************2(f)*******************************
******************************************2(f)******************
All donations of property of more than $500,000 are required to have a qualified appraisal, ***
****************************************2(f)***********************************
*******************************2(f)*****************************. Of the 37 paper-
filed tax returns claiming noncash contributions of more than $500,000 that had reporting errors,
54 percent (20 of 37) did not have appraisals attached. *****************2(f)**********
**************************************2(f)***********************************.
Additionally, although the IRS places specific indicators to identify for the Examination function
tax returns claiming noncash charitable contributions over a specific threshold dollar amount but


                                                                                             Page 7
                              Many Taxpayers Are Still Not Complying With
                         Noncash Charitable Contribution Reporting Requirements



with no Forms 8283, there is no indication these tax returns are being reviewed by the IRS
Examination function. None of the tax returns in our samples had been examined.
IRS examination results indicate taxpayers are continuing to claim a significant amount of
erroneous deductions for noncash charitable contributions. The IRS is in the process of or has
completed at least eight compliance initiatives on noncash charitable contributions. As of
April 2012, the IRS reported that it has closed 834 audits as part of these projects with total
assessments of approximately $671 million. One project involving the examination of 219 tax
returns over a four-year period resulted in 28 percent of the examinations closed with no changes
proposed to the tax returns. Seventy-two percent (158 of 219) of the cases were closed with
assessments, which totaled in all more than $5 million.

The IRS is not using the Form 8283 to more efficiently identify questionable
noncash charitable contributions at the time the tax return is processed
Although the instructions on the Form 8283 require taxpayers to provide certain information
about charitable contributions, the IRS does not capture information from the Form 8283 for
paper-filed tax returns. It also does not use information it captures for e-filed tax returns to
verify the accuracy of the charitable deduction at the time the tax return is filed.
Not capturing key information from the Form 8283 limits the IRS’s ability to verify the accuracy
of noncash charitable contributions; i.e., it can only perform a manual review of documents. If
the IRS captured key information from the Form 8283, it could improve its ability to identify
questionable claims for noncash contributions at the time the tax return is filed.
Information contained on Form 8283 that could be used to identify questionable charitable
donations and improve validation of noncash charitable contributions includes, for example:17
          **************************************2(f)*******************************
           **************************************2(f)****************************
           **************************************2(f)*******************************
           **************************************2(f)******************************
           **************************************2(f)*************************
           **************************************2(f)*********.
          **************************************2(f)*******************************
           **************************************2(f)*****************************
           **************************************2(f)*******************************
           **************************************2(f)*******************************
           **************************************2(f)*******************************
           **************************************2(f)****.


17
     Most tax returns reviewed had more than one error.
                                                                                              Page 8
                         Many Taxpayers Are Still Not Complying With
                    Noncash Charitable Contribution Reporting Requirements



      *****************************************2(f)************************
       *****************************************2(f)****************************
       *****************************************2(f)****************************
       *****************************************2(f)****************************
       *****************************************2(f)****************************
       *****************************************2(f)********.
      **************************************2(f)****************************
       **************************************2(f)*******************************
       **************************************2(f)****************.
Revisions to the Form 8283 can also improve the IRS’s ability to more efficiently identify
questionable noncash charitable contributions
The IRS instructs taxpayers claiming charitable contributions of $500 to $5,000 to put the date of
contribution on Form 8283. The IRS does not require a contribution date for donations of more
than $5,000. Instead, the IRS requires the donee to sign and date the Form 8283 acknowledging
the receipt of charitable contributions of more than $5,000.
If a taxpayer claiming charitable contributions of more than $5,000 submits his or her tax return
on paper, the Form 8283 with the donee’s signature is attached to the tax return and the IRS can
use the acknowledgement to ensure the donation was made in the current tax year. However, a
taxpayer who e-files his or her tax return must send the Form 8283 with the donee’s signature to
the IRS separately on paper to satisfy the IRS’s requirement for original signatures. As a result,
the donee’s acknowledgement for e-filed tax returns is not available at the time the tax return is
processed.
Because the IRS does not ask the taxpayer to provide the date of contribution for contributions of
more than $5,000, it must develop additional processes to ensure that the contribution was made
in the current tax year. By revising the Form 8283 to require a date of contribution for all
contributions, the IRS will be able to develop a single process to ensure that all contributions are
eligible to be deducted in the tax year claimed.

Clarifying taxpayer guidance could reduce reporting errors
Some taxpayer reporting errors appear to be the result of taxpayer confusion. The Form 8283
instructs taxpayers to combine similar items of property donated to any organization during the
tax year. However, the instructions are not clear that donations of like items are to be grouped
together regardless of whether the donations were made to the same or different organizations.
Of the 303 reporting errors identified, 129 (42.6 percent) involved taxpayers who did not
combine like donations.
If the like donations had been grouped as required, these taxpayers would have been subjected to
additional reporting requirements designed to ensure the eligibility of noncash contributions of

                                                                                             Page 9
                            Many Taxpayers Are Still Not Complying With
                       Noncash Charitable Contribution Reporting Requirements



more than $5,000. These additional reporting requirements include providing a written appraisal
by a qualified appraiser, the signature of a qualified appraiser, and the signature of the qualified
organization acknowledging receipt.
Form 8283 instructions also do not ensure the IRS has all the information it needs to verify the
eligibility of donations of publicly and non-publicly traded securities. Form 8283 instructions
state that taxpayers are to:
        Describe the property in sufficient detail. The greater the value of the property, the more
        detail must be provided. For a vehicle, give the year, make, model, condition, and
        mileage at the time of the donation. For securities, include the name of the issuer, kind of
        security, whether it is a share of a mutual fund, and whether it’s regularly traded on a
        stock exchange or in an over-the-counter market.
However, the instructions do not state that taxpayers should include the number of shares
donated when claiming a deduction for publicly and non-publicly traded securities. Without the
number of shares, the IRS has no basis to determine if the fair market value of the securities and
the resulting deduction is overstated or understated.
Of the 507 Tax Year 2010 returns reviewed, 169 included donations of securities. Almost
22 percent (37 of 169) did not include the number of shares donated in the description of the
securities. Further analysis found that nearly 18 percent (30 of 169) of tax returns overstated the
value of the securities at the time of the donation.

The reliability of IRS data for noncash charitable contributions could be improved
Noncash charitable contribution data contained in the IRS’s Individual Return Transaction File
(IRTF)18 are not always accurate. We conducted basic reliability testing of the data contained on
the IRTF as part of our evaluation of taxpayers’ compliance with noncash contribution reporting
requirements. We found the noncash contribution amounts recorded on the IRTF are not always
accurate and the dollar amounts of some of the errors are substantial. For example, six tax
accounts (two in Processing Year 2012 and four in Processing Year 2011) had noncash
charitable contributions recorded on the IRTF that exceeded $1 billion. However, the actual
amount of noncash contributions claimed by the taxpayer appears to be significantly less than
what is recorded in the IRTF. We estimate the amount of noncash contributions recorded for
these six tax accounts is overstated by approximately $88 billion.
Government Accountability Office Standards for Internal Control in the Federal Government19
state that agencies should develop application controls for information systems to help ensure the


18
   IRS database that contains information originally filed by the taxpayer and transcribed from Forms 1040, 1040A,
and 1040EZ and their accompanying forms and schedules.
19
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                          Page 10
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



completeness, accuracy, and validity of transactions during computer application processing.
The IRS has controls in place to identify tax returns where the sum of the charitable
contributions reported on Lines 16 through 18 on Schedule A (Form 1040), Itemized Deductions,
total contribution amount reported on Line 19 on the Schedule A. These controls should alert the
IRS to taxpayer and IRS input errors in recording charitable contributions. IRS employees are to
review the return and correct any transcription errors identified. However, it does not appear
these corrections are being made.
Some taxpayers will likely continue to misreport noncash charitable contributions to reduce their
tax liabilities unless the IRS takes steps to ensure taxpayers are complying with reporting
requirements. Taxpayers who claim a deduction for noncash charitable contributions that were
not made or that were overvalued are inappropriately reducing the amount of tax they must pay
resulting in a loss of revenue to the Federal Government.
The IRS can significantly improve its ability to detect and prevent improper deductions for
noncash charitable contributions by ensuring that all tax returns claiming noncash contributions
of more than $500 include a Form 8283 and a qualified appraisal, when required. The IRS can
also improve its ability to identify questionable noncash contributions by capturing key
information from the Form 8283 and using that information to validate the contribution at the
time the tax return is filed. However, the IRS must ensure that the noncash contribution
information captured is accurately reflected in its data systems. Without reliable charitable
contribution data, IRS program decisions with regard to the processing and verification of
noncash charitable contributions as well as efforts to improve the detection of questionable
claims may be based on incomplete or inaccurate data.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Expand current processes to identify all tax returns claiming noncash
charitable contributions of more than $500 that do not have a Form 8283 attached to the tax
return. The processes should identify all tax returns claiming noncash contributions of more than
$500,000 for which a qualified appraisal has not been attached to the tax return. The IRS should
request that the taxpayer provide the missing documentation before allowing a deduction for the
noncash charitable contributions.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       expand its processes to ensure that it identifies tax returns claiming noncash charitable
       contributions that do not have Form 8283 and/or a qualified appraisal attached, as
       required by applicable statutory thresholds. Correspondence will be initiated to obtain
       the missing documents from taxpayers before the applicable charitable contribution
       deduction is allowed.


                                                                                         Page 11
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



Recommendation 2: **********************************2(f)*******************
******************************************2(f)******************************
******************************************2(f)****************************
******************************************2(f)*********************.
       Management’s Response: The IRS agreed with this recommendation. **2(f)*****
       *********************************2(f)*******************************
       *********************************2(f)***********************************
       ***************2(f)***********************. The transcribed data will be
       available for use by the IRS’s existing compliance systems to ascertain compliance with
       reporting requirements.
Recommendation 3: Revise the Form 8283 and related instructions to: 1) require taxpayers
to include the contribution date in addition to the Donee Acknowledgment of Receipt for
donations of noncash property of more than $5,000; 2) clarify that taxpayers must group similar
items and claim the aggregate value of the noncash contributions as deductions regardless of the
number of different organizations to which the donations are made; and 3) require taxpayers to
include the number of shares donated when reporting contributions of securities.
       Management’s Response: The IRS agreed with this recommendation. Form 8283
       will be revised to require inclusion of the contribution date for donations of noncash
       property valued greater than $5,000. Additionally, the form and its instructions will be
       revised to clarify the grouping and aggregation of similar items as well as require that the
       number of shares be reported for donations of securities.
       Office of Audit Comment: Although the IRS agreed with our recommendation, IRS
       management did not agree with our $1.1 billion estimate of the potential impact on tax
       administration of unsubstantiated claims for noncash charitable donations. IRS
       management stated that an unsubstantiated expense does not automatically equate to an
       unallowable expense. They also stated that TIGTA did not consider subsequent
       enforcement activity when computing the outcome measure. However, IRS examination
       results from compliance initiatives indicate that taxpayers continue to claim a significant
       amount of erroneous deductions for noncash charitable contributions. Furthermore, none
       of the tax returns TIGTA reviewed had indications of examination activity. As such, we
       believe the outcome measure of $1.1 billion in potentially understated tax liabilities due
       to erroneous deductions for noncash charitable contributions accurately reflects the risk
       to tax administration associated with unsubstantiated donations.
Recommendation 4: Develop a process to verify the accuracy of noncash contribution
amounts captured in IRS data systems from individual tax returns. The IRS should also verify
the noncash contribution amounts recorded for the tax accounts that the TIGTA identified as
being potentially erroneous and make corrections where warranted.


                                                                                           Page 12
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



       Management’s Response: IRS management disagreed with this recommendation.
       They responded that data validation is performed as each tax return is transcribed into the
       IRS’s automated systems. Procedures require transcribers to correct all input errors;
       however, in the case of the six accounts identified, the transcribers corrected only the
       total contributions deduction field. This permitted the affected returns to process with the
       correct amount of total deductions, taxable income, and tax liability assessed. The IRS
       has ascertained that each of the amounts is correctly recorded on the Master File, which is
       the official system of record.
       Office of Audit Comment: Although we agree that total deductions, taxable income,
       and tax liability assessed are correctly recorded on the Master File, the Master File does
       not include information on the portion of total deductions related to noncash charitable
       contributions. The IRS relies on the information recorded for noncash contributions in
       the IRTF when evaluating the effectiveness of its noncash contribution compliance
       activities. Tests showed that noncash charitable contribution data contained in the IRS’s
       IRTF are not always accurate. Therefore, the IRS should take the steps necessary to
       ensure the information contained in the IRTF accurately reflects the information provided
       by the taxpayer on his or her tax return.

Better Controls Are Needed to Ensure Donations of Motor Vehicles
Are Appropriately Reported
Test results show that as of December 31, 2011, 89,772 taxpayers had claimed donations of
motor vehicles totaling $242.5 million on their Tax Year 2010 returns. Approximately
42 percent (37,554 of 89,772) of the tax returns with Copy B of the Form 1098-C attached did
not have a supporting Copy A of Form 1098-C filed with the IRS by the donee or the value of
the donation claimed did not agree with IRS records.
The IRS instructs donee organizations to furnish Copies B and C of Form 1098-C to the donor,
generally no later than 30 days after the date of sale of the donated vehicle. The donee should
file Copy A of Form 1098-C with the IRS by February 28, 2013, if submitting on paper, and by
April 1, 2013, if submitting electronically.
Taxpayers claiming donations of motor vehicles are required to attach Copy B of the
Form 1098-C and Form 8283 to their tax returns in order to receive the deduction. IRS
instructions also state:
       Filing deadline approaching and still no Form 1098-C. If the filing deadline is
       approaching and you still do not have a Form 1098-C, you have two choices.
           1. Request an automatic 6-month extension of time to file your return. You can get
              this extension by filing Form 4868, Application for Automatic Extension of Time


                                                                                          Page 13
                          Many Taxpayers Are Still Not Complying With
                     Noncash Charitable Contribution Reporting Requirements



               To File U.S. Individual Income Tax Return. For more information, see the
               instructions for Form 4868.
            2. File the return on time without claiming the deduction for the qualified vehicle.
               After receiving the Form 1098-C, file an amended return, Form 1040X, Amended
               U.S. Individual Income Tax Return, claiming the deduction. Attach Copy B of
               Form 1098-C (or other statement) to the amended return.
The IRS has not established processes to ensure donors or donees are complying with reporting
requirements. In September 2009, we reported that taxpayers were not attaching Form 1098-C
when claiming donations of motor vehicles.20 We recommended the IRS develop procedures to
capture the information on the Form 1098-C and match the information reported by charities on
Forms 1098-C with the information reported on taxpayers’ tax returns. The IRS disagreed with
this recommendation.
A match of the Forms 1098-C filed by charitable organizations to Tax Year 2010 returns with
Forms 1098-C attached to support donations of motor vehicles identified:
        35,846 tax returns had motor vehicle donations claimed as deductions totaling
         approximately $77 million, but the IRS shows no record of receiving a Form 1098-C
         from the charitable organization. The unsupported donations could result in a potential
         loss of tax revenue of approximately $17 million.
        1,708 tax returns reported donations for which the fair market values exceeded the sale
         proceeds by $2.2 million. These overvalued donations could result in a potential loss of
         tax revenue of approximately $456,000.
While the IRS captures information from Forms 1098-C filed electronically by taxpayers, it does
not transcribe the Form 1098-C for paper tax returns and does not match the taxpayer’s Copy B
of Form 1098-C to the taxpayer’s Form 8283. This would allow the IRS to identify questionable
donations of motor vehicles by taxpayers.
The IRS also does not match the taxpayer’s Copy B of the Form 1098-C to Copy A filed by the
charitable organization. Matching the information reported by charities on Forms 1098-C with
the information on taxpayers’ tax returns would help identify charities that do not provide the
required documentation to donors and to the IRS.

Recommendations
The Commissioner, Wage and Investment Division, should:



20
 TIGTA, Ref. No. 2009-30-116, Procedures to Address Noncompliance with the Reporting Requirements for
Contributions of Motor Vehicles Continue to be Inadequate (Sept. 2009).
                                                                                                  Page 14
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



Recommendation 5: Match Copy B of Forms 1098-C submitted by taxpayers with their tax
returns to the Forms 1098-C filed by charitable organizations to identify taxpayers who are
claiming motor vehicle donations for more than the value reported by the charitable organization
to identify questionable claims for motor vehicle contributions and take appropriate action to
adjust the taxpayer’s deduction for noncash charitable contributions accordingly.
       Management’s Response: IRS management disagreed that the recommended action
       will be effective in identifying questionable deductions for the donated vehicles. Copy B
       of Form 1098-C is a supporting document only. ****************2(f)********
       ******************************************2(f)***************************
       *********************************2(f)*************.
       **************************************2(f)*************************
       **************************************2(f)****************************
       **************************************2(f)*******************************
       **************************************2(f)*******************************
       **************************************2(f)******************************
       **************************************2(f)*******************************
       **************************************2(f)*******************************
       **************************************2(f)**********.
       Office of Audit Comment: Our recommendation to match Copies A and B of the
       Form 1098-C is consistent with the IRS’s Information Reporting and Document
       Matching program. In this program, the IRS matches copies of similar information
       reporting documents to help increase voluntary compliance and improve collections.
       In addition, the IRS stated that it is unable to determine the amount of noncash charitable
       donations claimed on Schedule A that is attributable to motor vehicle donations.
       Taxpayers must file a Form 8283 in addition to the Schedule A when claiming a motor
       vehicle donation. In their response to Recommendation 2 of this report, IRS management
       agreed to transcribe information from the Form 8283. This will enable the IRS to
       identify taxpayers who donate motor vehicles and match Copies A and B of Form 1098-C
       to ensure taxpayers’ claims for motor vehicle donations are substantiated by a charitable
       organization and the value of the donations claimed is accurate.
Recommendation 6: Coordinate with the Commissioner, Tax Exempt and Government
Entities Division, to develop a process to identify charitable organizations that did not file a
Form 1098-C for a motor vehicle donation as required and take appropriate action to ensure the
organization is in compliance.
       Management’s Response: The IRS partially agreed with this recommendation. It
       responded that the Tax Exempt and the Government Entities Division has a vigorous
       outreach program in place to advise donor organizations of IRS filing requirements. It
       will continue to monitor whether program enhancements are needed.

                                                                                          Page 15
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess IRS actions to ensure taxpayers are complying with the
reporting requirements for claiming noncash charitable contributions. To accomplish our
objective, we:
I.     Determined whether the IRS implemented appropriate corrective actions to address
       recommendations made in prior TIGTA reports.
       A. Determined the status of the corrective actions from prior TIGTA reviews.
           1. Determined whether the IRS used math error authority to deny claims for noncash
              charitable contributions by identifying tax returns claiming motor vehicles that do
              not have the required supporting documentation attached.
           2. Determined whether the IRS corresponded with taxpayers who claimed noncash
              charitable contributions greater than $50,000.
           3. Determined whether the IRS supplemented its outreach plan by promoting
              awareness of increased reporting requirements and responsibilities.
II.    Determined whether the IRS has processes to ensure individuals claiming noncash
       charitable contributions complied with the reporting requirements.
       A. Reviewed guidelines, interviewed management, and determined the reporting
          requirements for noncash charitable contributions.
       B. Reviewed Form 8283, Noncash Charitable Contributions, to assess the usefulness of
          the information requested from the taxpayer to identify noncompliance.
       C. Determined whether the IRS captured reporting requirements information to ensure
          individuals complied with these requirements.
       D. Determined whether the IRS used reporting requirements information to identify and
          stop potential erroneous noncash charitable contributions.
III.   Assessed the effectiveness of IRS processes and procedures to identify questionable
       noncash charitable contributions.
       A. Selected a statistically valid sample of 150 e-filed tax returns with noncash charitable
          contributions between $5,000 and $500,000 from a population of 276,942 e-filed tax



                                                                                          Page 16
                                 Many Taxpayers Are Still Not Complying With
                            Noncash Charitable Contribution Reporting Requirements



             returns in Tax Year1 2010 and determined whether taxpayers complied with the
             reporting requirements. We used attribute sampling to calculate the minimum sample
             size.
                        2             2       2
              n = (Z p(1-p))/(A +(Z p(1-p)/N))
              Z = Confidence Level:                    90 percent (expressed as 1.645 standard deviation)
              p = Expected Rate of Occurrence:          5 percent
              A = Precision Rate:                      ±3 percent
              N = Population:                          276,942
        B. Using the statistical sample in Step III.A., determined whether individuals complied
           with filing and documentation requirements.
             1. Identified all individuals who claimed noncash contributions but did not submit a
                Form 8453, U.S. Individual Income Tax Transmittal for an IRS e-file Return.
             2. Determined whether Form 8283 was signed by the appraiser and donee.
        C. Selected a statistically valid sample of 130 e-filed tax returns with noncash
           contributions more than $500,000 from a population of 857 e-filed tax returns in Tax
           Year 2010 and determined whether taxpayers complied with the reporting
           requirements. We used attribute sampling to calculate the minimum sample size.
                    2             2       2
             n = (Z p(1-p))/(A +(Z p(1-p)/N))
             Z = Confidence Level:            90 percent (expressed as 1.645 standard deviation)
             p = Expected Rate of Occurrence: 5 percent
             A = Precision Rate:              ±3 percent
             N = Population:                  857
        D. Using the statistical sample in Step III.C., determined whether individuals complied
           with filing and documentation requirements.
             1. Identified all individuals who claimed noncash contributions but did not submit a
                Form 8453.
             2. Determined whether Forms 8283 were signed by the appraiser and donee.
             3. Determined whether an appraisal was attached to the tax return.
        E. Selected a statistically valid sample of 150 paper-filed tax returns2 with noncash
           contributions between $5,000 and $500,000 from a population of 85,034 paper-filed


1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  We reviewed 137 of the 150 tax returns. The remaining 13 tax returns were unavailable for review because the
returns were not received when requested or had been assigned to an IRS employee for action.
                                                                                                         Page 17
                              Many Taxpayers Are Still Not Complying With
                         Noncash Charitable Contribution Reporting Requirements



             tax returns in Tax Year 2010 and determined whether taxpayers complied with the
             reporting requirements. We used attribute sampling to calculate the minimum sample
             size.
                    2            2    2
             n = (Z p(1-p))/(A +(Z p(1-p)/N))
             Z = Confidence Level:                    90 percent (expressed as 1.645 standard deviation)
             p = Expected Rate of Occurrence:         5 percent
             A = Precision Rate:                      ±3 percent
             N = Population:                          85,034
        F. Using the statistical sample in Step III.D., determined whether individuals complied
           with filing and documentation requirements, by determining whether Forms 8283
           were signed by the appraiser and donee when an item was valued greater than $5,000.
        G. Selected a statistically valid sample of 120 paper-filed tax returns3 with noncash
           contributions of more than $500,000 from a population of 516 paper-filed tax returns
           in Tax Year 2010 and determined whether taxpayers were complying with the
           reporting requirements. We used attribute sampling to calculate the minimum sample
           size.
                     2            2    2
             N = (Z p(1-p))/(A +(Z p(1-p)/N))
             Z = Confidence Level:            90 percent (expressed as 1.645 standard deviation)
             p = Expected Rate of Occurrence: 5 percent
             A = Precision Rate:              ±3 percent
             N = Population:                  516
        H. Using the statistical sample in Step III.G., determined whether individuals complied
           with filing and documentation requirements.
             1. Determined whether Forms 8283 were signed by the appraiser and donee.
             2. Determined whether an appraisal was attached to the tax return.
IV.     Assessed the effectiveness of IRS processes and procedures to identify erroneous
        noncash charitable contribution claims for donated vehicles.
             1. Reviewed guidelines and determined the reporting requirements for Form 1098-C,
                Contributions of Motor Vehicles, Boats, and Airplanes.
             2. Determined whether the IRS captured and used information provided by
                charitable organizations to validate 1098-C information reported on tax returns.


3
  We reviewed 90 of the 120 tax returns. The remaining 30 tax returns were unavailable for review because the
returns were not received when requested, had been assigned to an IRS employee, or did not meet our sample
criteria.
                                                                                                         Page 18
                        Many Taxpayers Are Still Not Complying With
                   Noncash Charitable Contribution Reporting Requirements



          3. Matched the Information Return Processing System data to the information on the
             taxpayer’s tax return and identified 1098-C discrepancies between what the
             organization reported to the IRS and what the taxpayer claimed on his or her tax
             return.
V.     Determined whether the IRS has compliance programs to identify tax returns with
       questionable noncash charitable contributions.
          1. Reviewed guidelines and determined how the IRS monitors reporting compliance
             for noncash contributions.
          2. Reviewed available documentation and assessed the effectiveness of compliance
             activities.
          3. Determined whether the IRS has any specific compliance initiatives or other
             projects for assessing noncash charitable contributions and their results.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes to ensure individuals
claiming noncash charitable contributions complied with reporting requirements. We evaluated
the controls by reviewing applicable documentation to identify questionable noncash charitable
contributions and stop erroneous noncash charitable contribution claims. The TIGTA’s contract
statistician assisted with developing projections of potentially unsubstantiated claims for
deductions of noncash charitable contributions.




                                                                                       Page 19
                       Many Taxpayers Are Still Not Complying With
                  Noncash Charitable Contribution Reporting Requirements



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann Baiza, Acting Director
Edward Gorman, Audit Manager
Kimberly Parmley, Audit Manager
Sandra L. Hinton, Senior Auditor
Lawrence Smith, Senior Auditor
Stephen Elix, Auditor
Denise Gladson, Auditor
Marcus Sloan, Auditor




                                                                                     Page 20
                      Many Taxpayers Are Still Not Complying With
                 Noncash Charitable Contribution Reporting Requirements



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                  Page 21
                             Many Taxpayers Are Still Not Complying With
                        Noncash Charitable Contribution Reporting Requirements



                                                                                             Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $1,094,559,542 in potential tax revenue loss to the Federal
    Government as a result of 273,704 taxpayers claiming deductions for unsubstantiated
    noncash charitable donations (see page 5).

Methodology Used to Measure the Reported Benefit:
We conducted a review of four statistically valid samples of Tax Year1 2010 returns with
noncash charitable contribution claims of more than $5,000. We used attribute sampling to
calculate the minimum sample size.
                    2            2      2
             n = (Z p(1-p))/(A +(Z p(1-p)/N))
             Z = Confidence Level:            90 percent (expressed as 1.645 standard deviation)
             p = Expected Rate of Occurrence: 5 percent
             A = Precision Rate:              ±3 percent
Figure 1 presents the results of our review.
                   Figure 1: Review of Noncash Charitable Contributions

                                     Population of          Number of Tax            Number of Tax Returns
     Type of Review                  Tax Returns           Returns Reviewed          With Compliance Issues

E-filed returns with
noncash contributions                                                                            115
                                       276,942                     150
between $5,000 and                                                                         77% Error Rate
$500,000
E-filed returns with                                                                              53
noncash contributions                       857                    130
more than $500,000                                                                         41% Error Rate



1
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                        Page 22
                            Many Taxpayers Are Still Not Complying With
                       Noncash Charitable Contribution Reporting Requirements




                                  Population of           Number of Tax         Number of Tax Returns
     Type of Review               Tax Returns            Returns Reviewed       With Compliance Issues

Paper-filed returns with
noncash contributions                                                                      98
                                      85,034                    137
between $5,000 and                                                                  72% Error Rate
$500,000
Paper-filed returns with                                                                   37
noncash contributions                   516                     90
more than $500,000                                                                  41% Error Rate

Source: TIGTA review of statistically valid samples.

We projected the results of our statistical sample review results using a 95 percent confidence
level to estimate the potential number of taxpayers who did not comply with reporting
requirements for noncash charitable contributions in Tax Year 2010. Figure 2 shows the details
of our sample projections.
                               Figure 2: Projection of Questionable
                                Noncash Charitable Contributions

                                                           Potential Erroneous Noncash Charitable
                  Potential Number of Taxpayers                     Contributions Claimed

   Type of         Lower        Point          Upper
   Review          Limit       Estimate        Limit     Lower Limit     Point Estimate    Upper Limit

E-filed
between
                  193,520       212,322       231,125   $1,671,205,815   $1,980,866,427   $2,290,527,038
$5,000 and
$500,000
E-filed more
                    276           343           410     $327,304,028     $504,373,322     $681,442,615
than$500,000
Paper-filed
between
                   54,383       60,827         67,271   $425,623,456     $731,046,116     $1,036,468,776
$5,000 and
$500,000
Paper-filed
more than           164           212           260     $265,908,176     $623,198,169     $980,488,161
$500,000

Totals            248,343       273,704       299,066   $2,690,041,475   $3,839,484,034   $4,988,926,590




                                                                                                Page 23
                                Many Taxpayers Are Still Not Complying With
                           Noncash Charitable Contribution Reporting Requirements



Source: Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant.

We computed the total number of taxpayers who did not comply with the noncash charitable
contribution reporting requirements and questionable charitable contributions by summing the
statistical projections for each of our samples. We computed the estimated tax revenue lost as a
result of taxpayers’ noncompliance using the following steps for each of our four statistical
samples.
       1. Computed the average Taxable Income (Line 43 of Form 1040, U.S. Individual Income
          Tax Return) reported on the exception cases.
       2. Determined the most frequent Filing Status.
       3. Identified the marginal tax rate applicable for the average Taxable Income and most
          frequently used Filing Status using the tax rate tables.
       4. Multiplied the projected questionable noncash charitable contributions claimed by the
          applicable marginal tax rate.
We then summed the estimated tax revenue lost for each of our samples to compute the total tax
revenue we estimate the IRS lost as a result of taxpayers’ noncompliance with noncash charitable
contribution reporting requirements. Figure 3 presents the details of our estimate of lost tax
revenue.
                                 Figure 3: Estimated Tax Revenue Lost
                                 From Noncash Charitable Contributions

                                       Average           Most
                                       Taxable        Frequent                           Estimated Lost
        Type of Review                 Income       Filing Status    Marginal Tax Rate   Tax Revenue2

E-filed between $5,000
                                      $107,708           23                   25%         $495,216,607
and $500,000
E-filed more than
                                     $5,440,249           2                   35%         $176,530,663
$500,000
Paper-filed between
                                      $146,418            2                   28%         $204,692,913
$5,000 and $500,000
Paper-filed more than
                                     $3,233,145           2                   35%         $218,119,359
$500,000

Total                                      –              –                    –         $1,094,559,542

Source: TIGTA analysis of statistically valid samples.


2
    Rounded to the nearest whole dollar.
3
    Filing Status 2 – Married Filing Jointly.
                                                                                                Page 24
                            Many Taxpayers Are Still Not Complying With
                       Noncash Charitable Contribution Reporting Requirements



Type and Value of Outcome Measure:
   Reliability of Information – Potential; $87,966,530,511 in noncash charitable contributions
    that are incorrectly recorded in the IRS’s IRTF4 (see page 5).

Methodology Used to Measure the Reported Benefit:
We conducted basic reliability testing of the data contained in the IRS’s IRTF as part of our
evaluation of taxpayers’ compliance with noncash contribution reporting requirements. We
identified six tax accounts, four in Processing Year5 2011 and two in Processing Year 2012,
where the IRTF shows noncash charitable contributions of more than $1 billion claimed by the
taxpayer. To determine if the amount recorded for noncash contributions was valid, we
compared the sum of cash, noncash, and prior year carryover contributions recorded in the IRTF
to the total amount of contributions recorded for each of these six tax accounts. Our analysis
showed that in all six tax accounts, the amount of noncash contributions significantly exceeds
total contributions recorded in the IRTF. Further research of these six tax accounts on the
Integrated Data Retrieval System6 shows the amount of noncash contributions recorded in the
IRTF may be overstated by $87,966,530,511.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $16,635,985 in potential tax revenue loss to the Federal
    Government as a result of 35,846 taxpayers claiming deductions for unsubstantiated
    donations of motor vehicles (see page 13).

Methodology Used to Measure the Reported Benefit:
We identified 89,772 Tax Year 2010 returns on the IRS Tax Return Database7 that claimed a
noncash charitable deduction of at least $500 and had a Form 1098-C, Contributions of Motor
Vehicles, Boats, and Airplanes, attached to the tax return. We matched the 89,772 tax returns to
third-party information documents on the IRS Information Returns Master File8 to determine if
the charitable organization had filed a Form 1098-C with the IRS as required. Our analysis
identified 35,846 tax returns claiming deductions for 36,397 donations where the charitable
organization had not filed a Form 1098-C with the IRS for the donation. The fair market values
claimed for the 36,397 donations totaled $77,169,104.


4
  IRS database that contains information originally filed by the taxpayer and transcribed from Forms 1040, 1040A,
and 1040EZ and their accompanying forms and schedules.
5
  The calendar year in which the tax return or document is processed by the IRS.
6
  Computer application consisting of databases and operating programs that support IRS employees working active
tax cases within each business function across the entire IRS.
7
  A relational database that stores tax return information submitted by the taxpayer.
8
  A database containing all information returns transcribed by the IRS.
                                                                                                         Page 25
                         Many Taxpayers Are Still Not Complying With
                    Noncash Charitable Contribution Reporting Requirements



We computed the net tax effect of the unsupported motor vehicle donations as follows:
    1. Computed the marginal tax rate applicable to each of the 35,846 tax returns using the tax
       return information available in the IRTF.
    2. Applied the marginal tax rate computed for each of the 35,846 tax returns to the amount
       claimed for motor vehicle donations on each tax return.
    3. Computed the total net tax effect for the 35,846 tax returns by summing the net tax effect
       computed on each tax return.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $456,201 in potential tax revenue loss to the Federal
    Government as a result of 1,708 taxpayers claiming fair market values for donations of motor
    vehicles in excess of the sales proceeds realized by the charitable organization (see page 13).

Methodology Used to Measure the Reported Benefit:
We identified 89,772 Tax Year 2010 returns on the IRS Tax Return Database that claimed a
noncash charitable deduction of at least $500 and had a Form 1098-C attached to the tax return.
We matched the 89,772 tax returns to third-party information documents on the IRS Information
Returns Master File to determine if the charitable organization had filed a Form 1098-C with the
IRS as required. Our analysis identified 37,573 tax returns where IRS data indicated the
charitable organization had filed a Form 1098-C.
We then matched the value of the donation claimed on the tax return to the sale proceeds
reported by the charitable organization on Form 1098-C. Our analysis identified 1,708 taxpayers
who claimed a fair market value for the motor vehicle that was in excess of the sale proceeds
reported by the charitable organization. The fair market value of the donations claimed exceeded
the sale proceeds by $2,224,572.
We computed the net tax effect of the overvalued donations as follows:
    1. Computed the marginal tax rate applicable to each of the 1,708 tax returns using the tax
       return information available in the Tax Return Data Base.
    2. Applied the marginal tax rate computed for each of the 1,708 tax returns to the amount
       claimed for motor vehicle donations on each tax return.
    3. Computed the total net tax effect for the 1,708 tax returns by summing the net tax effect
       computed on each tax return.




                                                                                           Page 26
                             Many Taxpayers Are Still Not Complying With
                        Noncash Charitable Contribution Reporting Requirements



                                                                                                   Appendix V

      Treasury Inspector General for Tax Administration
       Reports on Compliance With Noncash Charitable
            Contribution Reporting Requirements

     Report
     Number                Findings                   Recommendations                      Corrective Actions

                   Taxpayers are not                                                 The IRS agreed to use math error
                                                 Ensure tax returns without
                   complying with                                                    authority to deny claims for
                                                 required substantiation for
                   requirements for claiming                                         charitable contributions of motor
                                                 charitable contributions of motor
                   motor vehicles as                                                 vehicles when the supporting
                                                 vehicles are processed
                   charitable contribution                                           documentation is not submitted
                                                 pursuant to math error authority.
                   deductions.                                                       with the return.
                                                                          2
                                                 Ensure all Forms 1098-C are         The IRS disagreed that matching
                                                 transcribed and develop             the information reported by
    2009-30-1161                                 procedures to match the             charities on Form 1098-C with the
                   IRS procedures are            information reported by charities   information on taxpayers’ tax
                   inadequate to ensure          on Forms 1098-C with the            returns would yield good results.
                   taxpayers meet the            information reported on
                   requirements for deducting    taxpayers’ returns.
                   charitable contributions of
                   motor vehicles.               Use outreach to ensure that         The IRS disagreed that outreach,
                                                 charities are filing Form 1098-C    educational material, and other
                                                 with the IRS for each donated       methods were needed.
                                                 motor vehicle more than $500.
                   Taxpayers and tax             Develop a comprehensive             The IRS agreed to supplement its
                   practitioners need to be      outreach plan.                      outreach plan by promoting
                   better educated concerning                                        awareness of increased reporting
                   requirements for claiming                                         requirements and responsibilities.
                   charitable contributions.
    2007-30-0493   Procedures need to be         Develop procedures to address       The IRS partially agreed and will
                   established to identify       returns without required            correspond with taxpayers
                   noncompliance with            substantiation for noncash          claiming a noncash contribution
                   charitable contribution       charitable contributions.           more than $50,000.
                   requirements during returns
                   processing.



1
  TIGTA, Ref. No. 2009-30-116, Procedures to Address Noncompliance With the Reporting Requirements for
Contributions of Motor Vehicles Continue to Be Inadequate (Sept. 2009).
2
  Contributions of Motor Vehicles, Boats, and Airplanes.
3
  TIGTA, Ref. No. 2007-30-049, The Internal Revenue Service Needs to Improve Procedures to Identify
Noncompliance With the Reporting Requirements for Noncash Charitable Contributions (Mar. 2007).
                                                                                                             Page 27
                                Many Taxpayers Are Still Not Complying With
                           Noncash Charitable Contribution Reporting Requirements




     Report
     Number                    Findings                    Recommendations                      Corrective Actions

                      Taxpayers and tax               The IRS should coordinate with      The IRS did not agree that a
                      practitioners need to be        the other responsible operating     comprehensive outreach plan is
                      better educated concerning      divisions to develop a              needed at this time. The IRS
                      requirements for claiming       comprehensive outreach plan         believes the timing of the audit
                      motor vehicle donations.        on the reporting requirements       contributed to the issues noted in
                                                      for motor vehicle donations for     the report because the scope
                                                      affected taxpayers and tax          included returns filed during the
                                                      practitioners.                      first year in which the reporting
                                                                                          requirements took effect.
                      Additional procedures need      The IRS should take the             At the time of the report, the IRS
                      to be established to identify   following actions to address        did not agree to lower the dollar
                      noncompliance with motor        returns without required            threshold.
                      vehicle donation                substantiation for charitable       As agreed in its response to the
                      requirements during returns     contributions of motor vehicles:    prior audit, the Submission
                  4   processing.                     a) lower the dollar threshold to
    2007-30-171                                                                           Processing function will continue
                                                      ensure most of the returns          to correspond with taxpayers
                                                      claiming unsubstantiated            claiming a noncash charitable
                                                      deductions are addressed;           contribution greater than a specific
                                                      b) correspond with taxpayers to     threshold dollar amount and
                                                      obtain missing Forms 82835          missing Forms 8283.
                                                      and supporting documentation;
                                                      c) input a specific audit code on   As agreed in its response to the
                                                      tax returns that fail to provide    prior audit, in January 2008, the
                                                      missing Forms and                   Submission Processing function
                                                      substantiation to alert the         will begin assigning an audit
                                                      Examination function of returns     indicator to returns claiming a
                                                      without required substantiation     charitable contribution of donated
                                                      for charitable contributions of     vehicles greater than a specific
                                                      motor vehicles.                     threshold dollar amount and
                                                                                          missing Forms 8283.

      Source: Prior TIGTA audit reports.




4
  TIGTA, Ref. No. 2007-30-171, Improved Procedures Are Needed to Identify Noncompliance With the Reporting
Requirements for Contributions of Motor Vehicles (Sept. 2007).
5
  Noncash Charitable Contributions.
                                                                                                                   Page 28
                              Many Taxpayers Are Still Not Complying With
                         Noncash Charitable Contribution Reporting Requirements



                                                                                             Appendix VI

            Analysis of Statistically Valid Samples
          From Tax Year 2010 Returns With Noncash
        Charitable Contributions Claimed As Deductions

                                             E-Filed            E-Filed       Paper-Filed     Paper-Filed
                                            $5,000 to         More Than        $5,000 to      More Than
     Type of Tax Return Sampled             $500,000           $500,000        $500,000        $500,000

Number of Returns Reviewed                      150               130             137             90
Total Noncash Contributions
                                            $2.0 million     $162.8 million   $3.2 million   $175.2 million
Claimed As Deductions
Number of Returns With Errors                   115               53              98              37
Error Rate                                     77%               41%             72%             41%
Erroneous Contributions
                                            $1.1 million     $77.3 million    $1.6 million   $121.6 million
Claimed
Estimated Number of Individuals
Claiming Erroneous                           212,322              343           60,827            212
Contributions
Estimated Erroneous                                                             $731.0
                                            $2.0 billion     $504.4 million                  $623.2 million
Contributions Claimed                                                           million

                             Types of Errors (some tax returns have multiple errors)
                         1
Missing Forms 8283                               0                 0              10               0
                             2
Missing Forms 1098-C                             1                 0               5               1
Missing Appraisal                                0                18               0              20
Unclear Valuation Method                        23                 0               0               0
Incomplete Donee
                                                32                18               9               6
Acknowledgement
Incomplete Declaration of
                                                 0                18              13               6
Appraisal



1
    Noncash Charitable Contributions.
2
    Contributions of Motor Vehicles, Boats, and Airplanes.
                                                                                                       Page 29
                            Many Taxpayers Are Still Not Complying With
                       Noncash Charitable Contribution Reporting Requirements




                                           E-Filed         E-Filed   Paper-Filed
                                          $5,000 to      More Than    $5,000 to       Paper-Filed
  Type of Tax Return Sampled              $500,000        $500,000    $500,000     More Than $500,000

Incorrectly Reported Items on
                                               72            4           57                6
Section A of Form 8283
Unclear Description of Property                9            17           8                12
Missing Contribution Dates or
                                               39            8           17                3
Donee Dates of Receipt
Overstated the Value of the
                                               14            8           6                 4
Property
Source: TIGTA analysis of statistically valid samples.




                                                                                               Page 30
           Many Taxpayers Are Still Not Complying With
      Noncash Charitable Contribution Reporting Requirements



                                                  Appendix VII

Form 8283, Noncash Charitable Contributions




                                                          Page 31
                 Many Taxpayers Are Still Not Complying With
            Noncash Charitable Contribution Reporting Requirements




Source: IRS.gov. 


                                                                Page 32
          Many Taxpayers Are Still Not Complying With
     Noncash Charitable Contribution Reporting Requirements



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                         Page 33
     Many Taxpayers Are Still Not Complying With
Noncash Charitable Contribution Reporting Requirements




                                                    Page 34
                Many Taxpayers Are Still Not Complying With
           Noncash Charitable Contribution Reporting Requirements



                                                                               Attachment

RECOMMENDATIONS

The Commissioner, Wage and Investment Division, should:

RECOMMENDATION 1
Expand current processes to identify all tax returns claiming noncash charitable
contributions of more than $500 that do not have a Form 8283 attached to the tax return.
The processes should identify all tax returns claiming noncash contributions more than
$500,000 for which a qualified appraisal has not been attached to the tax return. The IRS
should request that the taxpayer provide the missing documentation before allowing a
deduction for the noncash charitable contributions.

CORRECTIVE ACTION
We will expand our processes to ensure that we identify tax returns claiming noncash
charitable contributions that do not have Form 8283, Noncash Charitable Contributions,
and/or a qualified appraisal attached, as required by applicable statutory thresholds.
Correspondence will be initiated to obtain the missing documents from taxpayers before
the applicable charitable contribution deduction is allowed.

IMPLEMENTATION DATE
January 15, 2014

RESPONSIBLE OFFICIAL
Director, Submission Processing, Customer Account Services, Wage and Investment
Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 2
***********************************2(f)****************************
***********************************2(f)***********************************
**
***********************************2(f)***********************************
* ***********************************2(f)******************.

CORRECTIVE ACTION
************************************2(f)**********************************
**************************************2(f)********************************
*****************2(f)*******************************. The transcribed data will
be available for use by our existing compliance systems to ascertain taxpayer compliance
with reporting requirements.




                                                                                            Page 35
     Many Taxpayers Are Still Not Complying With
Noncash Charitable Contribution Reporting Requirements




                                                    Page 36
                Many Taxpayers Are Still Not Complying With
           Noncash Charitable Contribution Reporting Requirements



                                              3

CORRECTIVE ACTION
Data validation is performed as each tax return is transcribed into our automated systems.
Procedures require transcribers to correct all input errors; however, in the case of the six
accounts identified, the transcribers corrected only the total contributions deduction field.
This permitted the affected returns to process with the correct amount of total deductions,
taxable income, and tax liability assessed. Only the total deduction amounts, which were
validated, were passed to downstream systems. Each of the accounts has been reviewed
and it has been ascertained they are correctly recorded on the Master File, which is the
official system of record.

IMPLEMENTATION DATE
N/A

RESPONSIBLE OFFICIAL
N/A

CORRECTIVE ACTION MONITORING PLAN
N/A

RECOMMENDATIONS

The Commissioner, Wage and Investment Division, should:

RECOMMENDATION 5
Match Copy B of Forms 1098-C submitted by taxpayers with their tax returns to the Forms
1098-C filed by charitable organizations to identify taxpayers who are claiming motor
vehicle donations for more than the value reported by the charitable organization to
identify questionable claims for motor vehicle contributions and take appropriate action to
adjust the taxpayer's deduction for noncash charitable contributions accordingly.

CORRECTIVE ACTION
We disagree that the recommended action will be effective in identifying questionable
deductions for the donation of motor vehicles. Copy B of Form 1098-C, Contributions of
Motor Vehicles, Boats, and Airplanes, is a supporting document only.
******2(f)*********
*************************************2(f)*********************************
* *************************************2(f)***************************

*************************************2(f)*********************************
***************************************2(f)*******************************
*****************************************2(f)*****************************
*******************************************2(f)*****




                                                                                                Page 37
                Many Taxpayers Are Still Not Complying With
           Noncash Charitable Contribution Reporting Requirements



                                             4

*******************************************************************2(f)***
*********************************************************************2(f)*
********************************************************2(f)**************
*********.

IMPLEMENTATION DATE
N/A

RESPONSIBLE OFFICIAL
N/A

CORRECTIVE ACTION MONITORING PLAN
N/A

RECOMMENDATION 6
Coordinate with the Commissioner, Tax Exempt and Government Entities Division, to
develop a process to identify charitable organizations that did not file a Form 1098-C for a
motor vehicle donation as required and take appropriate action to ensure the organization is
in compliance.

CORRECTIVE ACTION
The Tax Exempt and Government Entities Division has a vigorous outreach program in
place to advise donor organizations of their filing requirements. We will continue to
monitor whether program enhancements are needed.

IMPLEMENTATION DATE
N/A

RESPONSIBLE OFFICIAL
N/A

CORRECTIVE ACTION MONITORING PLAN
N/A




                                                                                               Page 38
